NO. 21-

Ui

IN THE
SUPREME COURT OF THE UNITED STATES

IN re JUAN LUIS LEONOR, Petitioner

PETITION FOR A WRIT OF HABEAS CORPUS

Juan Luis Leonor-DOC# 54664
Pro Se Petitioner
Nebraska Correctional Youth Facility
2610 N. 20th Street East
Omaha, Nebraska 68110

QUESTIONS PRESENTED
In 2011, nine years after Petitioner's convictions for second
degree murder became final, the Nebraska Supreme Court decided State
. v, Ronald-Smith, 282 Neb. 720 (Neb. 2011).
In Ronald-Smith, it was
held that Nebraska's offense of manslaughter, when committed upon a
sudden quarrel provocation, is an intentional offense same as second
degree murder; thus when there is evidence of a sudden quarrel provo­
cation, in order to obtain a conviction for second degree murder, the
State, by evidence beyond a reasonable doubt, must prove the lack of a
sudden quarrel provocation, an essential element of second degree
Petitioner's case squarely fits within Ronald-Smith's definimurder.
tion of the law because the State's own evidence provides that the
killing, although intentional, was the result of a sudden quarrel
provocation, and the State has not proven beyond a reasonable doubt
that he committed the intentional offense without a sudden quarrel.
Nebraska's collateral review proceeding is only available if a
decision of the Nebraska Supreme Court is held to be a new rule of
constitutional law and retroactive to cases on collateral review. Neb.
Rev. Stat. 29-3001(4)(d). Applying the Federal Retroactivity Test,
the Nebraska Supreme held that Ronald-Smith provides a new procedural
State v. Glass,
rule not retroactive to cases on collateral review.
298 Neb. 598 (Neb. 2018"). The retroactivity of Ronald-Smith is not at
issue in Petitioner's case, because the rule of law in Ronald-Smith
was. the correct statement of the law when petitioner's conviction
became final. Fiore v. White, 531 U.S. 225 (2001). Even so, the
decision not hold Ronald-Smith retroactive to cases on collateral
review is-in conflict with Federal law and it is thus reviewable by
this.. Court, because it confines petitioner to a lesser remedy than
See Danforth v.
what the U.S. Constitution and Teague command.
Minnesota, 552 U.S. 264, 287 (2008)■
Petitioner respectfully-asks the Court to grant review on the
following questions': '
.V 1. Whether, the Nebraska Supreme Court's decision not to hold
Ronald-Smith retroactive to cases on collateral review confines
Petitioner to a lesser remedy than what the U.S. Constitution and
Teague v. Lane demand, where,-as here, that Court employed the Federal
■ Retroactivity Test?
2,. Whether the Federal Constitution requires that Petitioner's
convictions and sentences be set aside in light of State v. RonaldSmith?
i

PARTIES TO THE PROCEEDINGS BELOW

Juan Luis Leonor, Petitioner, and the State of Nebraska have been
the parties in the proceedings in the Nebraska Courts.
Juan Luis Leonor, Petitioner, and Scott Frakes (Director of
Nebraska Department of Correctional Services) were the parties before
the Eight Circuit Court of Appeals.
Juan Luis Leonor, Petitioner, and Scott Frakes (Director of
Nebraska Department of Correctional Services), are the parties to the
current habeas corpus proceeding.

Scott Frakes is the person

detaining Mr. Leonor.

ii

TABLE OF CONTENTS

i

QUESTIONS PRESENTED

. ii

PARTIES TO THE PROCEEDINGS BELOW

v

TABLE OF AUTHORITIES

. x

TABLE OF APPENDICES
OPINION BELOW

1

STATEMENT OF JURISDICTION

1

RELEVANT CONSTITUTIONAL AND STATUTORY PROVISIONS .

.

STATEMENT OF FACTS

. 3

REASONS FOR GRANTING THE WRIT

. 8

I.

ADEQUATE RELIEF CANNOT BE OBTAINED IN ANY FORM
FROM LOWER FEDERAL AND STATE COURTS . .__.—=—=—,

9

A.

ADEQUATE RELIEF CANNOT BE OBTAINED IN
FEDERAL COURTS................................................

9

B.

ADEQUATE RELIEF CANNOT BE OBTAINED IN ANY
FORM FROM NEBRASKA COURTS..............................

11

EXHAUSTION

11

1.
(a) .

Postconviction Proceeding, May 30, 2012.

(b) .

Postconviction Proceeding, March 2, 2016.

2.

II..

ADEQUATE RELIEF -'CANNOT BE OBTAINED FROM
NEBRASKA.COURTS . . .......................................

. . 15

. 17

21

A

2.

.

20

EXCEPTIONAL CIRCUMSTANCES

1.

12

.

Ronald-Smith DID NOT EFFECT ANY CHANGE
IN THE LAW IN MR. LEONOR'S CASE; THUS NO
RETROACTIVITY IS AT ISSUE..............................

23

Ronald-Smith WAS DICTATED BY PRECEDENT;
THUS IT IS NOT; A NEW RULE..........................

26

iii

THE RULE ANNOUNCED IN RONALD-SMITH
IS SUBSTANTIVE. . . .....................................

3.

. 30
.36

B
III.

MR. LEONOR'S CONVICTIONS AND CONTINUED INCARCERATION
VIOLATED DUE PROCESS .............................................................
THE STATE'S OWN EVIDENCE, IN MR. LEONOR'S TRIAL,
PROVIDED THAT THE KILLING ALTHOUGH INTENTIONAL,
' WAS THE RESULT OF A SUDDEN QUARREL PROVOCATION. .

.40

A.

.

.42

1.

PROVOCATION

43

2.

THERE WAS A SUDDEN HAPPENING OR OCCURRENCE
OF.THE PROVOCATION................................................

47

3.. .NEBRASKA. HAS NOT AND CANNOT PROVE THAT
MR. LEONOR COMMITTED INTENTIONAL KILLING
WITHOUT A SUDDEN QUARREL PROVOCATION. .

.49

CONCLUSION.

53

VERIFICATION.. -.

54

iv

TABLE OF AUTHORITIES
CASES:
. 40

Apprendi v. New-Jersey, 530 U.S. 466 (2000)
.

Boche v. State, 84 Neb. 845 (Neb. 1909)

27,28
39

Bousley v. United States, 523 U.S. 614 (1998)

22,39

Bowen v. Johnston, 30.6 U.S. 19 (1939)

7,21,26,27,28

Bunkley v. Florida, 538 U.S. 835 (2003)

38

Burks v. U. s'. , 437-U.S: 1 (1978)

.20

Castille v. Peoples, 489 U.S. 346 (1989)

21

Chessman v. Teets, 354 U.S. 156 (1957)
Coleman v. Johnson, 566 U.S. 650 (2012)

.

. .49

.

30,31

Danforth v. Minnesota, 552 U.S. 264 (2008)

36

Davis v. United States, 417 U.S. 333 (1974)
District Attorney's Office for Third Judicial Dist. V. Osborn, 557
U.S. 52 (2006)

18

Duckworth' v. .Serrano, 454 U.S. 1 (1981)

20

Edwards v. Vanney, —S.Ct. —, 2021 WL1951781 (May 17, 2021)

.

.

.26
20

Ex parte Faheyt 332 U.S. 258 (1947)

. 39,52

Ex parte Hawk-j 321 U.S. 114 (1944)
Ex parte Lange, 18. Wall. 163 (1873)

39

Ex parte Siebold, 100 U.S. 371 (1880)

29

Felker y..- Turpin, 518 U.S. 651, 658 (1996)

.8,27
7,21,22,26,28

Fiore v. White, '531 U.S. 225 (2001)
Garner v. Louisiana, 368 U.S. 157 (1961)
Griffith v. Kentucky, 479 U.S. 314 (1987)

v

41
5

.22

Harper v. Virginia Dept, of Taxation, 509 U.S. 86 (1993)
Henderson v. Lockhart, 864 F. 2d 1447 (8th Cir. 1989)

20

House v. Bell, 547 U.S. 518 (2006)

38
8,36,53

In re Davis, 557 U.S. 952 (2009)

.40

In re Winship, 397 U.S. 358 (1970)

.38,40,41,49

Jackson v. Virginia, 443 U.S. 307 (1979)

41

Johnson v. Fankell, 520 U.S. 911 (1997)

37

Kuhlmann v. Wilson, 477 U.S. 436 (1986)

9

Leonor v. Houston, 2007 WL 2003413 (Dist. Neb. 2007)

37

McQuigging v. Perkins, 569 U.S. 383 (2013)
Meyer v. Nebraska, 262 U.S. 390 (1923)

.

.19

.

Michigan v. Long, 463 U.S. 1032 (1983)

22

Miller v. Alabama, 132 S.Ct. 2455 (2012)

35
Passim

Montgomery v. Louisiana, 136 S.Ct. 718 (2016)

40

Mullaney v. Wilbur, 421 U.S. 684 (1975)

24

. New Hampshire v. Main,. 532 U.S. 742 (2001)
Normandy Apartments, Ltd. V. [7.5., 100 Fed. Cl. 247 (2011)

.

. .24
. 36

O'Neal V. McAninch, 513 U.S. 432 (1995)
Schriro v. Summerlin, 542 U.S. 34 8... (2004)

.

.

.

.

. 5,11,22,31,32,34
37,38

Schulp v. Delo, 513 U.S. 298 (1995)
State v. Abdulkadir, 286 Neb. 417 (Neb. 2013)

.33,35,42

State v. Bao, 269 Neb. 127 (Neb. 2005)

13

State v. Bellamy, 264 Neb. 784 (Neb. 2002)

13

State v. Foster, 286 Neb. 826 (Neb. 2013)
State v. Freeman, 201 Neb. -382 (Neb. 1978)
vi

45,46
47

State v. Glass, 298 Neb. 598 (Neb. 2018).

. .4,5,6,7,10,18,22,31,32,36
. 34,43,47

State v. Gonzales, 294 Neb. 627 (Neb. 2016)

.14

State v. Haynes, 2014 WL 309411 (Neb. App. 2014)

. 18

State v. Hill, 308 Neb. 511 (Neb. 2021)

33

State v. Hinrichsen, 292 Neb. 611 (Neb. 2016)
State v. Jackson, 259 Neb. 24 (Neb. 1998)

. 24

State v. Johnson, 236 Neb. 831 (Neb.1991)

.24

State v. Jones, 245 Neb. 825 (Neb. 1994).

. .

State v. Leonor, 263 Neb.86, 92 (Neb. 2002).

.5,6,7,23,24,27,28,29,33
.

.

4,25,44,45,46,48,51
47

State v. Lyle, 245 Neb. 345- (Neb. 1994)

24

State v. Mantich, 249 Neb. 311 (Neb. 1996)
C‘

State v. Pettit, 233 Neb. 436 (Neb. 1989)

.5,27,28,29,33
Passim

State v. Ronald-Smith, 282 Neb. 720 (Neb. 2011)
State v. .Ryan, 233 Neb. 7 4 (Neb. 1989)

24

St'ate; v. Tucker, 251 Neb. 496 (Neb. 1999)

24

. State v. 'William-Smith, 284 Neb. 636 (Neb. 2012)

.

.Passim

.5,22,26,30,31

Teague v. Lane, 489 U.S. 288 (1989)
Tibbs v. Florida, 457 U.S. 31 (1982)

39

United States v. Davis, 139- S.Ct. 2319 (2019)

29

Viereck v. United States, 318 U.S. 236 (1943)

29

Wa.inwriqht v. Goodqe> 464 U.S. 78 (1983)

41

Welch v. Lund, 616 F. 3d 756 (7th Cir. 2010)

19

Welch v. United States, 136 S.Ct. 1257 (2016)

11

, Williams v. Taylor, 529 U.S. 420 (2000)

53
49

Wright v. West, 505 U.S. 277 (1992)
vii

Young v. Herper, 520 U.S. 143 (1977)

19

Zadvydas v. Davis, 533 U.S. 678 (2001)

18
23,25

Zedner v. U.S., 547 U.S. 489 (2006)

U.S. CONSTITUTION:
1,52

U.S. CONST. Art. I, Sec. 9, Cl. 2

1

U.S. CONST. Art. Ill

.2,22

U.S. CONST. Art. VI, ~C]. 2
U.S.' CONST. AMEND.. 1st

19

U.S. CONST'. AMEND. 5th

. 19
.1,19,34

U.S. CONST. -AMEND. 14th, Section 1

FEDERAL STATUTES:
28 U.S.C,. § .1651

.1

28 U.S.C. § 2241

1,2,8

28 U.S.C. § 2242

2,20

28 U.S.C. § 2243

1,2

28 U-.S.C. § 2244

1,2,3,8,9,10,11,37

28 U.S.C. § 2254

.2,4,28,29,33

NEBRASKA STATUTES:
18

Neb. Ct. R. § 6-101(A)(Neb. Rev. 2013)
Neb. Rev. Stat. § 25-1301.01 (Reissue 2008)
Neb. Rev. Stat. §28-105 (Reissue 2016)

viii

.

.

.13,14
3

Neb. Rev. Stat. §28-206 (Reissue 1995)
Neb. Rev. Stat. §28-304 (Reissues 1995 & 2016)

3,6
2,4,41

Neb. Rev. Stat. §28-305 (Reissue 2016)

2,4,28,29,33

Neb. Rev. Stat. § 28-1205(Reissue 1995)

. 4

Neb. Rev. Stat. §29-3001 (Reissue 2008)

3,12,16

OTHER PROVISIONS:
. 8,20,39

Supreme Court Rule 20.4(a)
.■r**

ix

TABLE OF APPENDICES

'

APPENDIX A:

Judgment Denying Authorization to file a Second
'Federal Habeas Petition entered on February 21, 2020,
by the Eight Circuit Court of Appeals, in the matter
of Leonor v. Frakes, Case No. 19-3145.

APPENDIX B:

Trial Jury Instructions No. 6 and 7, in the matter of
State v. Leonor, Doc. 149 No. 834; CR 10-9042117.

APPENDIX C:

Amended Application for Permission to File a Second
Federal Habeas petition, filed on October 21, 2019, by
Petitioner Juan L. Leonor, in the Eight Circuit Court
• of Appeals, in the matter of Leonor v. Frakes, Case
No. 19-3145.

APPENDIX D:

Successive Postconviction Motion filed by Petitioner
Juan L. Leonor, in the Douglas County District Court
on May 30, 2012, in the matter of State v. Leonor,
'Doc. 14 9 No. 834; CR 10-9042117.

APPENDIX E:

Order entered on April 6, 2021, by the Douglas County
District Court, denying Postconviction Relief, in the
matter of State v. Leonor, Doc. 149 No. 834; CR 10- - 9042117.

APPENDIX F;

Motion to Alter or Amend Judgment, filed on April 11,
2012, in.the Douglas County District Court, by
Petitioner Juan L. Leonor in the matter of State v.
Leonor, Doc. 149 No. 834; CR 10-9042117.

APPENDIX G:

Order entered on September 13, 2012, by the Nebraska
Supreme Court in the matter of State v. Leonor, Case
No. S-12-000394, dismissing appeal.

APPENDIX-H:

Motion to Withdraw Motion to Alter or Amend Judgment
filed in the Douglas County District Court, by
Petitioner Juan Luis Leonor, on October 1, 2012, in
the matter -of State v. Leonor, Doc. 149 No. 834; CR
... 10-9042117 .

APPENDIX I:

Order entered on October 2, 2012, by the Douglas
County District Court, Granting Motion to Withdraw;
in the ..-matter of State v. Leonor, Doc. 149 No. 834; CR
10-9042117.

APPENDIX J:

Letter. written -by Petitioner Juan L. Leonor, to the
Clerk of the Douglas County District Court, dated
November 12, 2013, in the matter of State v. Leonor,
'Doc. 149 No. 834; CR 10-9042117.
x
i" *

APPENDIX K:

Motion to Vacate or Modify Judgment filed on May
8, 2014, with Exhibit # 5 in Support, Filed by
Petitioner Juan L. Leonor in the Douglas County
District Court, Nebraska; in the matter of State v.
Leonor, Doc. 149 No. 834; CR 10-9042117

APPENDIX L;

Successive Motion for Postconviction Relief filed in
the Douglas County District Court, by Petitioner Juan
L. Leonor, on March 2, 2016, in the matter of State v.
Leonor, Doc. 149 No. 834; CR 10-9042117

APPENDIX M:

Order entered on September 6, 2017, by the Douglas
County District Court, Denying Successive State
Postconviction Relief; in the matter of State v.
Leonor, Doc. 149 No. 834; CR 10-9042117

APPENDIX.N:

Motion to Alter or Amend Judgment filed on September
13, 2017 in the Douglas County District Court, by
Petitioner, Juan L. Leonor, in the matter of State v.
Leonor, Doc. 149 No. 834; CR 10-9042117

APPENDIX.. 0

State v. Abdulkadir, 286 Neb. 417 (Neb. 2013); State
v. Hinrichsen, 292 Neb. 611 (Neb. 2016); State v.
294 Neb. 627 (Neb. 2016)~ Cases decided by
Gonzales,___________________________
the Nebraska Supreme Court holding that a jury
instruction stating that the "lack of sudden quarrel
is an essential element that must be proven beyond a
reasonable doubt by the State, is the correct
statement of the law.

APPENDIX P:

Excerpts from the Trial Bill of Exceptions in the
matter of State v. Leonor, Doc. 149 No. 834; CR 10-9
042117. Testimony of Trial State Witnesses: Police
Officer Brii'ce Ferrell; Rodolfo Chavez and Gerardo
Ortiz..

APPENDIX Q:

. 28 U.S.C. § 2242

.. APPENDIX R:

28 U.S.C. § 2243

' APPENDIX S:

28 U.S.C. § 2244

■. APPENDIX ■ T

28 U.S.C. § 2254

xi

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR A WRIT OF HABEAS CORPUS

Petitioner, Juan Luis Leonor, respectfully requests that this Court
grant habeas corpus relief, or transfer for hearing and determination his
application for habeas corpus to the district court in accordance with
its authority under 28 U.S.C.§ 2241(b).
OPINION BELOW
The opinion of the United States Court of Appeals for the Eight
Circuit appears at Appendix A to the Petition and is unpublished.

STATEMENT OF JURISDICTION
As discussed throughout this petition, this Court has jurisdiction
under 28 U.S.C. § 2241, § 1651(a); U.S. Const. Art. I, Sec. 9, Cl. 2;
U.S. Const. Art. III; and 28 U.S.C. § 2243.

The order of the united

States Court of Appeals for the Eight Circuit denying authorization to
file a successive petition for habeas corpus, was entered on February 21,
2020.

Appendix A.

No petition for rehearing or for a writ of certiorari

was sought because it is prohibited by 28 U.S.C. § 2244(b) (3) (E) .
RELEVANT CONSTITUTIONAL AND STATUTORY PROVISIONS
1.

U.S. Const. Art. I, § 9, Cl. 2: "The privilege of the writ of

habeas corpus shall not be suspended, unless when in cases of rebellion
or invasion the public safety require it."
2.

U.S. Const. Amend. XIV, § 1, states, in relevant part: "No

1

state shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States, not shall any state deprive
any person of life, liberty, or property, without due process of law, nor
deny to any person within its jurisdiction the equal protection of the
laws.
3.

U.S. Const. Art. VI, Cl. 2: in relevant part states: The

Constitution, and the Laws of the United States which shall be made in
Pursuance thereof, and all treaties ... the Supreme Law of the Land.
4.

28 U.S.C. §2241, in relevant part states: "(c) The writ of

habeas corpus shall not extent to a prisoner unless-(1) He is in custody
in violation of the Constitution or laws of the United States ...

(d) the

application is made by a person in custody under the judgment and
sentence of a state...."
5.

28 U.S.C. § 2242:

APPENDIX Q

6.

28 U.S.C. § 2243:

APPENDIX R

7.

28 U.S.C. § 2244:

APPENDIX S

8.

28 U.S.C. § 2254:

APPENDIX T

9.

Neb. Rev.

Stat. § 28-304 (Reissues 1995 & 2016): "(1) A person

commits murder in the second degree if he causes the death of a person
intentionally, but without premeditation.

(2) Murder in the second

degree is a Class IB Felony."
10.

Neb. Rev. Stat. § 28-305 (Reissue 2016): "(1) A person commits

manslaughter if he or she kills another without malice upon a sudden
quarrel or causes the death of another unintentionally while in the
commission of a unlawful act.

(2) Manslaughter is a Class IIA Felony.

2

11.

Neb. Rev. Stat. § 28-206 (Reissue 1995): "A person who aids,

abets, procures, or causes another to commit any offense may be prosecuted and punished as if he were the principal offender.
12.

Neb. Rev. Stat. §28-105 (Reissue 2016), states in relevant

pa^t, that Class IB Felony is punishable by imprisonment of a minimum
term of 20 years, maximum life,

Class IIA Felony is punishable by a

minimum of a $ 25,000 fine, or a maximum of 20 years
13.

imprisonment.

Neb. Rev. Stat. § 29-3001(4)(d), states, in relevant part,

that a motion for postconviction relief must be filed within 1 year
after: "The date on which a constitutional claim asserted was initially
recognized by the Supreme Court of the United States or the Nebraska
Supreme Court, if the newly recognized right has been made applicable
retroactively to cases on postconviction collateral review...."

STATEMENT OF THE CASE
Petitioner was denied Due Process because (1) Nebraska failed to
prove beyond a reasonable doubt that he committed intentional killing of
another "without a sudden quarrel provocation," an essential element of
the crime charged.

Thus, he remains convicted, sentenced, and incarceNo other court, but this Court,

rated for a crime he did not commit,

through the exercise of its original jurisdiction can correct this
miscarriage of justice.1

1

This is an original proceeding that requires not only a showing
of exhaustion, but also a showing that no other remedy (state or
federal) is available, Thus, to avoid repetition any other relevant
facts not addressed within the "Statement of the Case" will be addressed
within their respective sections.
3

Relevant here, On August 22, 2000, Mr. Leonor was convicted by a
lury in Nebraska of two counts of second degree murder in violation of
Neb. Rev. Stat. § 28-304 (Reissue 1995), and sentenced to 20 years to life
imprisonment for each murder count.
(Neb. 2002).

See State v. Leonor, 263 Neb.86, 92

The convictions and sentences became final on April 2002.

Id. 2
The crux of this proceeding centers mostly in State v. Ronald-Smith,
282 Neb. 720 (Neb. 2011), which was decided 9 years after Mr. Leonor's
convictions became final,

In Ronald-Smith, the Nebraska Supreme Court

modified Nebraska law pertaining to the criminal statutory offenses of
second-degree murder (the offense Mr. Leonor was convicted of), and manslaughter upon a sudden quarrel a statutory criminal offense codified in
Neb. Rev. Stat. § 28-305 (Reissue 2016).3

In Ronald-Smith, the Nebraska

Supreme Court held that manslaughter upon a sudden quarrel constitutes an
intentional offense.

See State v. Glass, 298 Neb. 598, 609 (Neb. 2018)

(In Ronald-Smith, it was "clarified ... that sudden quarrel manslaughter
is an intentional crime....")
Since the enactment of Neb. Rev. Stat. §28-305, but prior to 1994,
the offense of manslaughter upon a sudden quarrel was considered an

2

Mr. Leonor was also convicted of two counts of use of a weapon to
commit a felony in violation of Neb. Rev. Stat. § 28—1205(1) (Reissue
1995), related to the murder charges, and was sentenced to 5 to 10 years
State v. Leonor, 263 Neb. at 92.
for each count.
3
The Offense of manslaughter under Neb. Rev. Stat. §28-305
(Reissue 2016), can be committed in two different ways: one way is
"upon a sudden quarrel," and the other way is "unintentionally while in
the commission of an unlawful act." Id.
4

intentional offense. See State v. Pettit, 233 Neb. 436, 460 (Neb. 1989).
In 1994, however, the Nebraska Supreme Court changed that course in
State v. Jones, 245 Neb. 825 (Neb. 1994).

In Jones, it was held that

manslaughter upon a sudden quarrel was not an intentional offense. Id. at
830, n. 6 (overruling State v. Pettit) .

In reaching that conclusion, the

Jones Court reasoned that change was needed in order to distinguish
second degree murder from manslaughter upon a sudden quarrel, which both
were intentional offenses. Ronald-Smith, 282 Neb, at 732.
in 2011, the Nebraska Supreme overruled State v. Jones, and re­
affirmed State v. Pettit.

See Ronald-Smith, 282 Neb, at 734.

The

overruling of Jones, the Nebraska Supreme Court has held, brought a new
rule of law in Ronald-Smith that does not apply retroactively to cases on
collateral review. See State v. William-Smith, 284 Neb. 636, 654-655
(Neb. 2012) (citing Griffith v. Kentucky, 479 U.S. 314, 328__(1987j_) ; State^
v. Glass, 298 Neb. 598, 607-610 (Neb. 2018)(Ronald-Smith's new rule is
not substantive)(citing Montgomery v. Louisiana, 136 S.Ct. 718 (2016);
Schriro v. Summerlin, 542 U.S. 348 (2004); and Teague v. Lane, 489 U.S.
288 (1989)).
After Ronald-Smith was decided, Mr. Leonor sought collateral
relief in the Nebraska courts arguing that based on Ronald-Smith his
convictions violated federal due process because the State failed to
prove beyond a reasonable doubt that he committed second-degree murder.
After a long waiting period of about 7 years, his case is still pending
in the state collateral court without a final ruling, as will be fully
addressed further below.

During this course, is when the Glass Court

5

held that Ronald-Smith does not apply retroactively to cases on collateral review, as will also be addressed further below.

With that in

mind, if Mr. Leonor is to continue waiting for a ruling on his claim in
the state courts, it is likely that when the state collateral court rules
on it, it will be disposing of his claim based on Glass.

Not only that,

but forcing Mr. Leonor to wait for a ruling in the state courts not
knowing how many more years he will have to wait, implicates his Liberty
interest constitutional right.
Even so, it is Mr. Leonor's position that no retroactivity is at
issue concerning the applicability of Ronald-Smith to his case.

Mr.

Leonor's contention is structured on the fact that Ronald-Smith did not
effect any change in the law to his case.

That is, notwithstanding that

State v. Jones held that manslaughter was not an intentional offense in
either of its capacities, intentional manslaughter was one of the options
the State provided Mr. Leonor's jury with to convict him besides inten­
tional second degree murder, as will be addressed next.
Mr. Leonor was tried and convicted as an aider and abettor to second
degree murder.

In Nebraska, "[a] person who aids, abets, procures, or

causes another to commit any offense may be prosecuted and punished as if
he were the principal offender."
1995).

See Neb. Rev. Stat. §28-206 (Reissue

Under the theory of aiding and abetting (Jury Instruction No. 6),

Mr. Leonor's jury was instructed as follows:
The defendant can be guilty of murder in the second degree or
manslaughter even though he personally did not commit every act
involved in the crime so long as he aided and abetted someone else
to commit it. The-Defendant aided someone else if:

6

(1) the defendant intentionally helped or encouraged another
person to commit murder in the second degree or manslaughter;
and
(2) the defendant knew that the other person intended to commit
murder in the second degree or manslaughter;
(3) the murder in the second degree of manslaughter in fact was
committed by that other person.
Appendix B, 43 (emphasis added).
On its face, Jury Instruction No. 6 did not provide Mr. Leonor's
jury with the statement of the law in line with State v. Jones; instead,
his jury was instructed with what now in Ronald-Smith was held to be the
correct statement of the law: i.e., that manslaughter is an intentional
offense, when committed upon a sudden quarrel.

Id. 282 Neb. at 732, 734.

Now, that Ronald-Smith held that manslaughter upon a sudden quarrel
is an intentional offense, which resembles the language within Jury
Instruction No. 6, no retroactivity is at issue and thus Mr. Leonor
should not be stopped from relying on Ronald-Smith. See e.g., Fiore v.
White, 531 U.S. 225 (2001) (no retroactivity is at issue if a state
highest court's change in the law was the correct statement of the law
when petitioner's conviction became final); Bunkley v. Florida, 538 U.S.
835 (2003)(same).
Also, it should be noted that in holding that Ronald-Smith it is not
a new substantive rule of law, the Glass Court employed the Federal
retroactivity analysis to reach that conclusion, a conclusion Mr. Leonor
\

asserts was wrong because it is in conflict with Federal law, and thus it
is subject 'to review by this Court, as will be addressed further below.
For the reasons that follow, review and relief should be granted.
7

REASONS FOR GRANTING THE WRIT
This Court has jurisdiction to entertain this original habeas
petition.

In Felker v.

Turpin, 518 U.S. 651, 658 (1996), the Court left

"open the question whether and to what extent the Antiterrorism and
Effective Death Act of 196 (AEDPA) applies to original petitions." See In
re Davis, 557 U.S. 952 (2009) (Stevens, J., Concurring).

And whatever the

answer to that question is, the Court did establish that the "restrictions on repetitive and new claims imposed by §§ 2244(b)(1) and (2)[,]"
although not bound by them, "they certainly inform [the Court s] consideFelker, 518 U.S. at 662.

ration of original habeas petitions."

The power of this Court to consider Mr. Leonor's habeas corpus
petition lies at the plain language of 28 U.S.C. § 2241.

That statute

allows the Court to grant a writ of habeas corpus when a prisoner "is
in custody in violation of the Constitution or laws or treaties of the
United States."

See § 2241 (c) (3) .

And this Court's jurisdictional power

to consider writs of habeas corpus from prisoners unconstitutionally
sentenced in state court proceedings, like Mr. Leonor, is specifically
granted in 28 U.S.C. 2254(a): "The Supreme Court ... shall entertain an
application for a writ of habeas corpus in behalf of a person in custody
in violation of the Constitution or laws or treaties of the United
States." Id.
Further, the Supreme Court Rule 20.4(a) requires that "[i]f the
relief sought is from the judgment of a state court, the petition shall
set out specifically how and where the petitioner has exhausted avai­
lable remedies in the state courts or otherwise comes within the provi-

8

sions of 28 U.S.C. 2254(b)," and "[t]o justify the granting of a writ of
habeas corpus, the petitioner must show that exceptional circumstances
warrant the exercise of the Court's discretionary powers, and that
adequate relief cannot be obtained in any other form of from any other
court."

Id.

As will be addressed below, Mr. Leonor meets each one of the
requirements to obtain review of this original habeas petition.
ADEQUATE RELIEF CANNOT BE OBTAINED
IN ANY FORM FROM LOWER FEDERAL AND STATE COURTS

I.

A.

ADEQUATE RELIEF CANNOT BE OBTAINED IN FEDERAL COURTS

This is Mr. Leonor's second time seeking federal habeas corpus
relief.

In 2005, Mr. Leonor brought his first federal habeas petition

and relief was denied in its entirety.
2003413, * 1 (Dist. Neb. 2007).

See Leonor v. Houston, 2007 WL

With that in mind, if Mr. Leonor wishes

to bring the instant habeas petition in the lower federal courts, he then
must meet the requirements for second or successive habeas petitions
enumerated within § 2244(b)(1) & (2).
To begin with, Mr. Leonor must first seek permission from the
Federal Court of Appeals to file a second habeas petition. § 2244(b)
(3) (A) .

Second, Mr. Leonor. must show either that his claim involves a

"new rule of constitutional law, made retroactive to cases on collateral
review by th[is] Supreme Court, that was previously unavailable, see §
2244(b)(2)(A), or that the "factual predicate for the claim could not
have been discovered previously through the exercise of due diligence;
and ... the facts underlying the claim, if proven and viewed in light of

9

the evidence as a whole, would be sufficient to establish by clear and
convincing evidence that, but for constitutional error, no reasonable
fact finder would have found the applicant guilty of the underlying
offense."

See § 2244(b) (2) (B) (i) & (ii) .

First, Mr. Leonor's claims are based on Ronald-Smith, a decision the
Nebraska Supreme Court has already held does not apply retroactively to
cases on collateral review. See State v. William-Smith, 284 Neb. 636,
654-655 (Neb. 2012); State v. Glass, 298 Neb. 598, 607-610 (Neb. 2018).
Even if the Nebraska Supreme Court would have held that Ronald-Smith
applies retroactively to cases on collateral review, Section 2244(b)(2)
(A) only operates if the new rule announced is made retroactively by this
Court, not the Nebraska Supreme Court.

Id.

The alternative will be if

Mr. Leonor has a viable claim that the U.S. Constitution commands states
to apply new substantive rules applicable to cases on collateral review.
Of course, Mr. Leonor must first exhaust that question to the Nebraska
courts, and then take it to this Court through the writ of certiorari
route.

Mr. Leonor has already presented that question to the Nebraska

courts, however, as he will fully address it further below, there is not
corrective process available to him in the Nebraska Courts to vindicate
his Ronald-Smith claims.
Second, the option that could be the most appropriate is if Mr.
Leonor's argument that the change in the law in Ronald-Smith was the
correct statement of the law at the time of his trial, could constitute
the "factual predicate" under § 2244(b) (2) (B) (i) .

Even if this condition

could be available, Mr. Leonor is held to a higher standard of "actual

10

innocence[,]" § 2244(b) (2) (B) (ii), which he believes is unfair because if
Ronald-Smith applies retroactively in collateral review, that higher
actual innocence standard disappears, particularly, where, as here, no
retroactivity is at issue.
Mr. Leonor did seek permission from the Eight Circuit Court of
Appeals to file a second habeas petition,

In that proceeding, Mr. Leonor

first alleged that his Ronald-Smith claims fit the criteria of § 2244(b)
(2)(A), based on the principles outlined in Montgomery v. Louisiana, 136
S.Ct. 718 (2016), Schriro v. Summerlin, 542 U.S. 348 (2003), and Welch v.
United States, 136 S.Ct. 1257 (2016).

Appendix C, 7-12 & 23-24.

Second, Mr. Leonor argued that the essence of Ronald-Smith constitutes a factual predicate for his claim under § 2244(b) (2) (B) (i) & (ii)t
and that his claim provided actual innocence because the State cannot
prove that he committed second degree murder. Appendix C, 6-22.
The Court of Appeals denied Mr. Leonor's application with no expla
nation. Appendix A.

And pursuant to § 2244(b) (3) (E) , Mr. Leonor could

not have taken an appeal to this Court from the Court of Appeals judgment
denying permission to file a second habeas petition.
Therefore, for the reasons explained above, adequate relief cannot
be obtained in any form from the lower federal courts.

B.

ADEQUATE RELIEF CANNOT BE OBTAINED IN ANY FORM
FROM NEBRASKA COURTS
1.

EXHAUSTION

Since the decision in Ronald-Smith was released, Mr. Leonor has
brought his Ronald-Smith based claim twice in the Nebraska Courts.
11

(a) .

Postconviction Proceeding, May 30, 2012:

On May 30, 2012, in a timely manner, Mr. Leonor sought collateral
relief under the Nebraska Postconviction Act, Neb. Rev. Stat. § 29-3001
(Reissue 2008).4

In that proceeding, among other claims, Mr. Leonor

argued that his convictions were obtained in violation of Due Process
because under Ronald-Smith the State failed to prove beyond a reasonable
doubt "the absence of sudden quarrel provocation" an element of second
5
degree murder, see Appendix D, 3 & 79-81.
On April 6, 2012, the Nebraska postconviction Court denied relief
reasoning generally that "[e]ach of [Mr. Leonor's] claims were clearly
"knowable" to him at the time of his direct appeal or two prior postconviction motions."

Appendix E, 1-2.6

As far as Mr. Leonor's Ronald-

Smith based claims is concerned, the state postconviction court was wrong
in its April 6, 2012-ruling because Ronald-Smith was not available until
after November 2011.
On April 11, 2012, Mr. Leonor filed a timely motion to alter or
amend judgment asking the postconviction court to reconsider its order

State v. Ronald-Smith, was decided on November 2011. Under Neb.
Rev.Stat. 29-3001(4), Mr. Leonor had 1-year to bring a postconviction
motion following the Ronald-Smith decision. On May 12, 2012, within
6-months after the Ronald-Smith decision was released, Mr. Leonor
filed his postconviction motion. Appendix D.
5

Only the relevant true copies of the pages of the original motion or
petition referred to are provided.

6

The "prior two postconviction motions" referred to by the postconvic­
tion court in its April 6, 2012-Order, were postconviction motions
filed by Mr. Leonor in 2003 & 2008, prior to Ronald-Smith, and thus
they are not relevant here.
12

concerning his Ronald-Smith based claims.
through 5).

Appendix F, 3-4 (Issues 1

At the same time, Mr. Leonor had also filed a notice to

appeal the April 11, 2012 Order,

Shortly thereafter, the appeal was

dismissed because upon the filing of Mr. Leonor's motion to alter or
amend the April 11, 2012-judgment, the Nebraska Supreme Court was left
without appellate jurisdiction.

Appendix G.

7

Upon learning that the appeal was dismissed, Mr. Leonor decided to
withdraw his motion to alter or amend judgment and rather to continue
with his appeal, Appendix H, 1-2, which is a permitted process within
Nebraska law.

State v. Bao, 269 Neb. 127, 133-134 (Neb. 2005) (in this

case the defendant filed a motion to alter or amend the judgment denying
him postconviction relief, which had terminated the time to file an
appeal.

Later, that defendant sought to withdraw the motion to alter or

amend judgment.

The Nebraska Supreme Court held that upon the ruling on

the motion to withdraw defendant's 30—days to appeal commenced again).
Thus, Mr. Leonor had 30-days to commence an appeal from the ruling of his
motion to withdraw.
On October 2, 2012, the motion to withdraw was granted.

Appendix I.

Pursuant to Neb. Rev. Stat. § 25-1301.01 (Reissue 2008), a clerk of the

7

The Nebraska Supreme Court cited State v. Bellamy, 264 Neb. 784 (Neb.
State v. Bellamy, it was held that "[w]hen a motion termina2002). In ___________________
ting the 30-day appeal period is filed, a notice of appeal filed before
the court announces its decision upon the terminating motion has not
effect and appellate court acquires no jurisdiction." Id. at 787; see
Bao, 269 Neb. 127, 132 (Neb. 2005) (the running of the time
also State v._________________
for filing a notice of appeal shall be terminated as to all parties by a
timely motion to alter or amend a judgment).
13

state court is required "within 3 working days after the entry of any
civil judgment, to send postcard or notice by mail to each party or the
party's attorney, advising that a judgment has been entered and the date
of entry."

See State v. Haynes, 2014 WL 309411, * 3 (Neb. App. 2014).

This process under Neb. Rev. Stat. § 25-1301.01, was not followed by the
clerk of the state, court.
To be exact, Mr. Leonor did not receive notification that the Court
had entered an order granting his motion to withdraw,

Then, after a year

or so had passed, Mr. Leonor felt compelled to call the clerk of the
court to inquire about the status of the motion to withdraw,

In that

telephonic conversation, Mr. Leonor was told that the motion to withdraw
had already been granted in October 2, 2012.

Thinking that it may have

been a misunderstanding from the clerk, Mr. Leonor was prompted to write
the clerk of the court asking for a copy of the said October 2, 2012ruling, which he later received it on December 1, 2013. Appendixes I & J.
Because the ruling on the motion to withdraw was entered on October
2, 2012, and Mr. Leonor did not know about that ruling until after a year
had passed, he was not able to commence an appeal related to the April 6,
2012 Order denying postconviction relief, because he was already outside
the 30-days period to commence an appeal.
On May 8, 2014, Mr. Leonor sought to rectify the violation to Neb.
Rev. Stat. § 25-1301.01 (related to the motion to withdraw), through a
motion to vacate or modify the judgment a proper procedure in Nebraska.
State v. Haynes, 2014 WL 309411 (Neb. App. 2014)(motion to vacate or
modify judgment proper remedy to reopen appeal if "the clerk's failure to

14

send [defendant] notice of the judgment deprived him of his right to
appeal of his postconviction motion.").
In support of the motion to vacate or modify the October 2, 2012judgment, Mr. Leonor offered evidence showing that he never received
notification of that judgment from the postconviction court or the clerk
of that court within the 30 days he had to commence an appeal related to
the April 6, 2012—ruling denying postconviction relief.
5; 41-43; Exhibit 5.

Appendix K, 1-

8

As of today, since May 8, 2014, Mr. Leonor has not received a ruling
on his motion to vacate or modify judgment.

(b) .

Postconviction Proceeding, March 2, 2016:

On March 2, 2016, Mr. Leonor filed a successive state postconviction
motion in Nebraska arguing that based on Ronald-Smith his Federal Due
process rights were violated because the State failed to prove beyond a
9
reasonable doubt that he committed second-degree murder, Appendix L ,
9-11; and Id. 7-8.

This time, the main basis for bringing that postcon­

viction motion was this Court's decision in Montgomery v. Louisiana, 136
S.Ct. 718 (2016)(holding that "when a new substantive rule of constitu­
tional law controls the outcome of a case, the Constitution requires
state collateral review courts to give retroactive effect to that rule").
Under that circumstance, Mr. Leonor argued that through the lens of

8

See, ante, Note 5.

9

See, ante, Note- 5.
15

Montgomery v. Louisiana, the decision in Ronald-Smith is a substantive
rule of law that'the U.S. Constitution commands it must apply retroactAppendix L, 2.

tively to cases on collateral review.
2017, postconviction relief was denied.

Appendix M.

On September 6,
In denying relief,

that postconviction court reasoned that the Nebraska Supreme Court in
State v. William-Smith, 284 Neb. 636 (Neb. 2012), held that Ronald-Smith
was not a constitutional rule of law; thus, Mr. Leonor could not have met
the requirement under Neb. Rev. Stat. § 29-3001(4)(d), which requires
that in order to bring a successive postconviction a new rule of law must
be of constitutional character and must be retroactive to cases on
collateral review.10

Appendix M, 5.

Moreover, the postconviction court also reasoned that even if
Ronald- Smith was a rule applicable on collateral review, Mr. Leonor's
claim failed because he did not file his motion within the 1-year period
of limitations under Neb. Rev. Stat. § 29-3001(4), after Ronald Smith was
decided; that Ronald-Smith was decided on November 11, 2011, and his
postconviction motion was filed on March 2, 2016. Appendix M, 5 6.
On September 13, 2017, in a timely fashion, Mr. Leonor sought to
alter or amend the judgment entered on September 6, 2017, denying postconviction relief.

10

Appendix N.

In that motion to alter or amend, Mr.

Neb. Rev. Stat. 29-3001(4)(d), states that a motion for postconvic­
tion relief must be filed within 1-year after: "The date on which a
constitutional claim asserted was initially recognized by the Supreme
Court of the United States or the Nebraska Supreme Court, if the newly
recognized right has been made applicable retroactively to cases on
postconviction collateral review...."

16

Leonor insisted that Ronald-Smith is a substantive rule of law that the
U.S. Constitution commands Nebraska must apply it retroactively to cases
on collateral review.

Appendix N, 2-4.

In addition, Mr. Leonor advanced

that the postconviction court erred in finding that Mr. Leonor did not
bring a postconviction motion within the 1-year period of limitations
after Ronald-Smith was decided, because he did bring a motion on May 30,
2012.

Appendix N, 4-7; see also, ante, pp. 12-15 (the motion filed on

May 30, 2012).
As of today, no ruling has been entered on this motion to alter or
amend-judgment filed on September 13, 2017.
2.

ADEQUATE RELIEF CANNOT BE OBTAINED FROM NEBRASKA COURTS

As Mr. Leonor explained above in the "Exhaustion" section, since
Ronald-Smith was decided he has sought collateral review in Nebraska
pressing that he stands convicted in violation of Federal Due Process, to
no avail.

The main reason for not obtaining review, at least in the

Nebraska courts, is based on the impression that Ronald-Smith does not
apply retroactively to cases on collateral review.

Thus, unless this

Court will hold that the U.S. Constitution commands Nebraska to apply
Ronald-Smith retroactively to Mr. Leonor's case, he is without recourse
in the Nebraska Courts.
First, as shown above, for postconviction to be available for Mr.
Leonor, the postconviction statute requires that a new rule must be of
constitutional nature and retroactively applicable to cases on collateral
review.

See Neb. Rev. Stat. § 29-3001(4) (d) .

The holdings of State v.

William-Smith.,r 284 Neb. 636, 654-655 (holding Ronald-Smith is not a

17

constitutional rule), and State v. Glass, 298 Neb. 598, 607-610 (holding
Ronald-Smith is not a substantive rule of law), do not assist Mr. Leonor
in obtaining collateral review in Nebraska courts.
Second, there is no reasonable explanation why the state postcon­
viction court has yet not ruled upon Mr. Leonor,s motion to modify or
vacate the judgment related to the postconviction motion filed on May 30,
2012, see ante pp. 15-18, and there is no reasonable explanation for the
delay in entering a ruling on Mr. Leonor's motion to alter or amend judg­
See

ment related to the postconviction motion filed on March 2, 2016.
ante pp. 18-20.

In fact, it is the rule in Nebraska that a state district court
presented with a collateral proceeding, such as "Post judgment motionsmodification & postconvictions," are required to dispose of the matters
within "180 days to a year."

See Neb. Ct. R. § 6-101(A)(Neb. Rev.

2013) ; see also State v. Hill, 308 Neb. 511, 523 (Neb. 2021)(Explaining
Neb. Ct. R.. § 6-101 (A) ) .
The only reason, Mr. Leonor carefully believes, his state postcon­
viction proceedings have been delayed for more than 7 years, is because
his case has been treated merely as residual.
Leonor has to wait for a ruling?

How many more years Mr.

Particularly when he has an interest of

liberty because he is innocent of the convictions against him.
Zadvydas v. Davis, 533 U.S. 678, 690 (2001)

See e.g.,

("Freedom from imprisonment—

from government custody, detention, or other forms of physical restrain—
lies at the heart of the liberty Clause protects."); District Attorney's
Office for Third Judicial Dist. V. Osborn, 557 U.S. 52, 68

18

(2006) (a state

prisoner has "a liberty interest in demonstrating his innocence with new
evidence under state law."); Id. at 67 ("No state shall ... deprive any
person of life,

... without due process of law.")(citing U.S. Const.

Amend. 14th, 1st and 5th).

The fact that a decision-making process

involves discretion, does not prevent Mr. Leonor from having a protecttable liberty interest.

Cf. e.g., Young v. Herper, 520 U.S. 143, 150

(1977) .
Mr. Leonor is 43 years old.

By Mr. Leonor proving that his

convictions are in violation of Federal Due Process because the State
failed to prove beyond a reasonable doubt that he committed second-degree
murder, he will be able to enjoy "not merely freedom from bodily restraint but also the right ... to engage in any of the common occupations
of life, to acquire useful knowledge, to marry, establish a home and
bring up children,

... generally to enjoy those privileges long recog-

nized ... as essential to the orderly pursuit of happiness by free man."
Meyer v. Nebraska, 262 U.S. 390, 399 (1923)(citations omitted).
This is not the case in which petitioner has not even attempted to
give the state courts any chance to address his federal claim.

So by

compelling Mr. Leonor to keep waiting for a ruling in the state courts
and thus to complete exhaustion of his Due Process claim, deprives him of
his liberty interest federal right, especially when it is evident that no
remedy is available to him in the Nebraska courts.

See e.g., Welch v.

Lund, 616 F. 3d 756, 760 (7th Cir. 2010) ("These provisions [2254 (b) (i) &
(ii)] excuse the need for exhaustion of state remedies when, for example,
an inordinate and unjustifiable delay renders the state's process

19

ineffective to protect the petitioner's rights.")(citation omitted);
Duckworth v. Serrano, 454 U.S. 1, 3 (1981)(excusing exhaustion is proper
"if there is no opportunity to obtain redress in state court or if the
corrective process is so clearly deficient as to render futile any effort
to obtain relief.").
Therefore, under the circumstances outlined above there exists no
adequate relief that can be obtained in any form from the lower federal
courts and the Nebraska courts, because "there is an absence of avai­
lable state corrective process; or ... circumstances exits that render
such process ineffective to protect the rights of" of Mr. Leonor.

28

U.S.C. § 2254(b)(1)(B)(i) & (ii); see also Henderson v. Lockhart, 864 F.
2d 1447, 1450 (8th Cir. 1989) (exhaustion not required where "prospect for
a meaningful appeal is a matter of conjecture."); Castille v. Peoples,
489 U.S. 346, 350 (1989) ( w w It would be inconsistent with the ... underlying principles of comity, to mandate recourse to state collateral
review whose results have effectively been predetermined, or permanently
to bar from federal habeas prisoners in States whose postconviction
procedures are technically inexhaustible.

11 //

) •

The requirements of S.Ct. Rule 20.4(a) and 28 U.S.C. § 2242 ( reasons for not making application to the district court in which the
applicant is held"), are therefore met.
EXCEPTIONAL CIRCUMSTANCES

II.

This Court's power to grant an extraordinary writ is very broad but
reserved for exceptional cases in which "appeal is a clearly inadequate
remedy."

Ex parte Fahey, 332 U.S. 258, 260 (1947).

20

Mr. Leonor stands

convicted for a crime that the law as modified in State v. Ronald Smith,
can no longer lawfully hold him convicted for.

That is, the evidence is

legally insufficient because the State has not yet proven and cannot
prove that Mr. Leonor did not commit the intentional killing upon a
sudden quarrel; as a result he currently stands serving a sentence of 40
years to life that Nebraska lacked the power to prescribe.

No other

court, but only this Court can provide review to redress this miscarriage
of justice.

In the past, this Court has found exceptional circumstances

in cases that raised similar questions that Mr. Leonor raises in this
petition.

Thus, Mr. Leonor's case should not be the exception now.

As

this Court once said:
On many occasions this Court has found it necessary to say
that the requirements of Due Process of the Fourteenth Amendment
must be respected no matter how heinous the crime in question and
no matter how guilty an accused ultimately be found to be after
guilt has been established in accordance with the procedure
demanded by the Constitution, Evidently, it also needs to be
repeated that the overriding responsibility of this Court is to the
Constitution of the United States, no matter how late it may be
that a violation of the Constitution is found to exist.
See Chessman v. Teets, 354 U.S. 156, 165 (1957) .
A.
An exceptional circumstance occurred in Fiore v. White, 531 U.S. 225
(2001) and Bunkley v. Florida, 538 U.S. 835 (2003), where this Court
granted certiorari to resolve whether a state's change in the law after
petitioners ' conviction became final had effected a retroactivity issue.
Moreover, if retroactivity was at issue, "when, or whether, the Federal
Due Process Clause requires a State to apply a new interpretation of a
state criminal statute retroactively to cases on collateral review."

21

Fiore, 531 U.S. at 226.

The same exceptional question exists in Mr.

Leonor's case as it occurred in Fiore, because no retroactivity is at
issue concerning the rule announced in State v. Ronald-Smith.

Specifi-

cally, because Ronald-Smith's interpretation of the law was the correct
statement of the law at the time Mr. Leonor was convicted, thus, it did
not effect any change in the law in Mr. Leonor's case.
Even if Ronald-Smith would have effected a change in the law, Mr.
Leonor insists that Ronald-Smith is a substantive rule of law.

In

holding that Ronald-Smith is not a substantive rule, the Glass Court
employed the Federal retroactivity analysis to have reached its conclusion.

See State v. Glass, 298 Neb. 598, 607-610 (Relying on Montgomery

v. Louisiana, supra, Schriro v. Summerlin, supra, and Teague v. Lane,
supra) .

Thus, under that condition, whether the Glass Court was correct

in holding that Ronald-Smith is not a substantive rule is "reviewable by
this Court,."

Montgomery v. Louisiana, 136 S.Ct. at 727.

Because Mr.

Leonor insists the decision in Glass is in conflict with federal law, it
is an exceptional circumstance.

ll

u
See Bowen v. Johnston, 306 U.S. 19, 27 (1939) ("an exceptional
circumstance "where the need for the remedy afforded by the writ of
habeas corpus is apparent[,] ... are those indicating a conflict between
state and federal authorities on a question of law involving concerns of
// // ) (citations
large importance affecting their respective jurisdictions,
omitted). See also, Michigan v. Long, 463 U.S. 1032, 1040 (1983) (jurisdiction of this Court would be allowed when "a state court decision
fairly appears to rest primarily on federal law or to be interwoven with
Virginia Dept, of Taxation, 509 U.S. 86, 100
federal law."); Harper v._____
(1993) (The Supremacy Clause does not allow States to deny remedies for
federal rights "by the invocation of a contrary approach to retroactivity
under state law."); Id. at 102 ("State law may provide relief beyond the
demands of federal due process, but under no circumstances may it confine
petitioners to a iesser remedy[.]")(citations omitted).
22

1.

Ronald-Smith DID NOT EFFECT ANY CHANGE IN THE LAW
IN MR. LEONOR'S CASE; THUS NO RETROACTIVITY IS AT ISSUE

Mr. Leonor's jury was instructed that Mr. Leonor could have been
convicted of either intentional second degree murder or intentional
Manslaughter.

Appendix B, 43 (Jury Instruction No. 6) :

The defendant can be guilty of murder in the second degree or
manslaughter even though he personally did not commit every act
involved in the crime so long as he aided and abetted someone else
to commit it. The Defendant aided someone else if:
(1) the defendant intentionally helped or encouraged another
person to commit murder in the second degree or manslaughter; and
(2) the defendant knew that the other person intended to commit
murder in the second degree or manslaughter
(3) the murder in the second degree of manslaughter in fact
was committed by that other person.
Id.

(emphasis added).
That manslaughter is an intentional offense, is the exact statement
See State v. Ronald-Smith, 282

of the law announced in Ronald-Smith.
Neb. at 732 & 734.

It is true that at the time of Mr. Leonor's convic­

tions became final the law was that manslaughter was not an intentional
offense.

See State v. Jones, 245 Neb. 821, 830, n. 6 (Neb. 1994).

However, it was Nebraska's decision to instruct Mr. Leonor's jury with
the option to convict him for intentional manslaughter,

Hence, no change

in the law was effected in Mr. Leonor's case from the decision in RonaldSmith.

Accordingly, judicial or collateral estoppel prevents Nebraska

from changing its initial position.

See Zedner v. £7.5., 547 U.S. 489,

504 (2006) ("Where a party assumes a certain position in a legal procee­
ding, and succeeds in maintaining '-that position, he may not thereafter,
simply because his interests have changed, assume a contrary position,
23

especially if it be to the prejudice of the party who had acquiesced in
the position formerly taken by him.")(citation and original quotations
omitted).

The judicial estoppel applies to a state.

Normandy Apart-

ments, Ltd. V. U.S., 100 Fed. Cl. 247 (2011) (citing New Hampshire v.
Main, 532 u.S. 742, 755 (2001)). "Several factors typically inform the
decision whether to apply the doctrine in a particular case[.]"

Id.

First, "a party's later position must be clearly inconsistent with its
earlier position."

Id.

As stated above, it was Nebraska's choice to

instruct Mr. Leonor's jury with the incorrect statement of the law at the
time of his trial when the law said that manslaughter was not an intentional offense.

State v. Jones, supra.

12

12

Although, the Nebraska Supreme Court has held that a jury instruct­
ion of that nature only places a heavier burden on the State to prove
the element of intent, State v. Jackson, 259 Neb. 24, 37-38 (Neb. 1998),
that is not all correct at least in Mr. Leonor's case.
To be exact, the Jackson Court's reasoning is based on the presump­
tion that a jury will be properly instructed that a state has the burden
to prove intent beyond a reasonable doubt under the aiding and abetting
theory. See e.g., the aiding and abetting jury instructions in State v.
Mantich, 249 Neb. 311, 324-325 (Neb. 1996); State v. Ryan, 233 Neb. 74,
113 (Neb. 1989); State v. Tucker, 257 Neb. 496, 508 (Neb. 1999); State v.
Johnson, 236 Neb. 831, 840-841(Neb.1991) .
In Mr. Leonor's case, his jury was not instructed, under the aiding
and abetting theory, that the State had the duty to prove beyond a
reasonable doubt that Mr. Leonor committed the intentional killing.
Appendix B.
Moreover, under the circumstances, Jury Instruction No. 6 did convey
to Mr. Leonor's jury that he had the duty to prove the difference between
intentional second-degree murder and intentional manslaughter, whatever
that was. And because Mr. Leonor did not testify, his jury may have
thought that he failed to prove his burden, a factor that had influenced
them to find him guilty of intentional second degree murder. Thus,
Nebraska's decision to instruct Mr. Leonor's jury on intentional
manslaughter did not place any heavier burden on the State whatsoever,
but it did have effect in the jury in reaching their verdict.
24

Now, Ronald-Smith held that manslaughter is an intentional offense
when committed upon a sudden quarrel provocation, and requires the State,
not Mr. Leonor, to prove beyond a reasonable doubt that he did not commit
the intentional killing upon a sudden quarrel.

Thus, that manslaughter

is an intentional offense now under Ronald-Smith, was clearly inconsistent with the State's position at Mr. Leonor's trial.
Second, "whether the party has succeeded in persuading a court to
accept the party's earlier position...."
tation omitted).

Zedner, 547 U.S. at 504 (ci-

On direct appeal of Mr. Leonor's convictions, the State

pressed to the Nebraska Supreme Court that it had proven beyond a reasonnable doubt all elements to convict him for second degree murder under
the aiding and abetting theory,

Mr. Leonor's convictions for second-

degree murder were affirmed as legally sufficient even when his jury had
found him guilty under the incorrect statement of the law.

State v.

Leonor, 263 Neb. at 97.
Third, "whether the party seeking to assert an inconsistent position
would derive an unfair advantage or impose an unfair detriment on the
opposing party if not estopped."
omitted).

Zedner, 547 U.S. at 504 (citation

It will be an unfair advantage on Mr. Leonor, to say that

because Nebraska has instructed his jury with the statement of the law as
given now in RonaId-Smith, his jury had the capacity to find him guilty
of intentional manslaughter.
As stated above, not only it is doubtful whether the State was held
to its heavy burden of proving beyond a reasonable doubt that Mr. Leonor
committed the intentional killing when the aiding and abetting jury

25

instruction did not convey his jury to hold the State to that burden.
Appendix B.

But also, it is likely that Mr. Leonor's jury held him to a

burden of proving the presence of the fact that distinguished intentional
second degree murder from intentional manslaughter, whatever the fact
was, and because Mr. Leonor did not testify his jury thought he failed to
prove that burden, a burden he was not required to prove.

Additionally,

Mr. Leonor's jury did not know that pursuant to Ronald-Smith, it is the
State's burden to prove beyond a reasonable doubt the fact that distin—
guishes second-degree murder from intentional manslaughter.
Therefore, no retroactivity is at issue here from the decision in
Ronald-Smith, and judicial and collateral estoppel prevents Nebraska from
changing its initial position.
2.

Ronald-Smith WAS DICTATED BY PRECEDENT; THUS IT IS NOT A NEW RULE
"A new rule is new unless it was "dictated by precedent existing at

the time the defendant's conviction became final.

tr ft

Edwards v. Vanney,—

S.Ct. —, 2021 WL1951781, * 5 (May 17, 2021) (citing Teague, 489 U.S. at
301 (plurality opinion)).
In Fiore v. White, and Bunkley v. Florida, this Court held that
"retroactivity is not at issue" if a state court's interpretation of a
criminal law is a correct statement of the law when a petitioner's
conviction became final.
840.

Fiore, 531 U.S. at 226; Bunkley, 538 U.S. at

The proper question is not whether the law changed, but whether in

light of the new law, as interpreted later by the State's highest court,
made clear that petitioner's conduct did not violate an element of the
statute.

If not, his conviction "does not satisfy the structures of the

26

Due Process Clause," and "retroactivity is not at issue."

Id (citing

Fiore).
Ronald-Smith did not state a new theory of law.

The offense of

manslaughter, as defined in Section 28-305(1) has "remained unchanged
since 1977."

Ronald-Smith, 282 Neb, at 725.

Thus, since 1977, Section

28-305(1) states that "A person commits manslaughter if he kills another
without malice, either upon a sudden quarrel, or causes the death of
Id.

another unintentionally while in the commission of an unlawful act.

The offense of Manslaughter upon a sudden quarrel has been treated
as an intentional offense for more than a century.

Ronald-Smith, 282

Neb, at 733 (citing Boche v. State, 84 Neb. 845 (Neb. 1909)) .

In State

v. Pettit, 233 Neb. 436 (Neb. 1989), the Nebraska Supreme Court affirmed
that manslaughter upon a sudden quarrel, under Section 28-305(1), was
still an intentional offense.
Pettit).

See Ronald-Smith, 282 Neb, at 729 (citing

By doing so, Ronald-Smith Court reaffirmed Pettit and Boche.

See Ronald-Smith, 282 Neb, at 734.
So what reason is given to treat Ronald-Smith as a new rule?

The

fact that State v. Jones, 245 Neb. 821 (Neb. 1994) had overruled Pettit
to the extent that manslaughter upon a sudden quarrel was an intentional
offense.

See Ronald-Smith, 282 Neb, at 730.

That, alone, cannot be a

foundation to treat Ronald-Smith as a new rule.

The Due Process Clause

demands that the inquiry must be not one of form but of substance in
determining the inquiry.

In other words, it is not about whether the law

changed in Nebraska, but "[r]ather when the law changed."
538 U.S. at 841-842.

See Bunkley,

Better put, whether the law was the true "correct

27

statement of the law" at the time Mr. Leonor's convictions became final.
See Fiore, 531 U.S. at 226.
For instance, it was not disputed in Bunkley that the Florida law in
question had changed after the petitioner's conviction became final.
Bunkley, 538 U.S. at 836-838.

However, that did not settle the inquiry,

as this Court observed, because what had led to the change in the law
question was the result of "an evolutionary refinement of the law."

Id.

Unclear was, however, at "what stage in the evolutionary process" "over
the course of these many years," "the law law had reached at the time
Bunkley was convicted."

Id at 841.

As this Court reasoned, "[b]ecause

Florida law was in a state of evolution over the course of these many
years , we do not know what stage in the evolutionary process the law had
reached at the time Bunkley was convicted."

Id.

Nebraska law, concerning Section 28-305(1), has also been in a state
of evolutionary refinement.
1995.

It went from Pettit in 1989, to Jones in

Then, it went from Jones to Ronald-Smith in 2011.

This refinement

concluded in Ronald-Smith by holding that manslaughter upon a sudden
quarrel has been an intentional offense since Pettit and Boche.
In other words, the holding of Ronald-Smith was dictated by the
precedents of Pettit and Boche, which not only both stated the correct
statement of the law, see Ronald-Smith, 282 Neb, at 732 ( the language
used by the Legislature to define the crime of manslaughter" has always
been "plain and unambiguous," and thus the "holding of Jones that an
intentional crime cannot constitute sudden quarrel manslaughter is
inconsistent with the language of 29-305(1)...."); Id. at 734 ("the

28

analysis and holding in Pettit was correct and the holding in Jones that
«[t]he distinction between second degree murder and manslaughter upon a
sudden quarrel is the presence or absence of an intention to kill," was
error), but also the Nebraska Supreme Court clearly held that the case of
State v. Jones had been an unconstitutional judicial legislation because
it had "essentially rewrote § 28-305 (1)

Ronald-Smith, 282 Neb, at

732.
If State v. Jones was unconstitutional law, it means it was void and

as no law at all.13

To that extent, it is fair to say that Pettit on the

other hand had legitimately construed the language used by the Nebraska
Legislature to define the offense of manslaughter, which it was as much
as "plain and unambiguous" then, as it is now when interpreted again by
Ronald-Smith.

See

Ronald-Smith, 282 Neb, at 733.

Therefore, because the statement of the law announced in Ronald
Smith was dictated by precedent (i.e., Pettit which was decided in 1989),
it is the same statement of the law at the time Mr. Leonor's convictions
became final in 2002.

As such, Due Process commands that no retroact-

tivity is at issue here.

13

United States v. Davis, 139 S.Ct. 2319 (2019)("When
See e.g. _____________
Congress passes a law, the role of courts under our Constitution is not
to fashion a new, clearer law to take its place, but to treat the law
as a nullity and invite Congress to try again."); Viereck v. United
States, 318 U.S. 236, 243" (1943) ("the unambiguous words of a statute
which imposes penalties are not to be altered by judicial construction
136 S.Ct. at 731 ("[a]n unconstitu...."); Montgomery v. Louisiana,_______________
tional law is void, and is an no law.")(original quotations)(citing Ex
parte Siebold, 100 U.S. 371 (1880)) .

29

3.

THE RULE ANNOUNCED IN RONALD-SMITH IS SUBSTANTIVE

"States are free to make new procedural rules retroactive on state
collateral review."

Montgomery v. Louisiana, 136 S.Ct. at 729.

And if a

state makes a new procedural rule retroactive, that state court is not
prevented "from providing greater relief in their own collateral review
courts."

Id.

As concerning substantive rules, states are required to

make a substantive rule retroactive:
The Court now holds that when a new substantive rule of cons­
titutional law controls the outcome of a case, the Constitution
requires state collateral review courts to give retroactive effect
Teague's conclusion establishing the retroactivity
to that rule.
of new substantive rules is best understood as resting upon
constitutional premises.
Id.
Mr. Leonor reads Montgomery as to command that the U.S. Constitution
is at play in the States not only when a new substantive rule is announced by this Court, but also when a particular state announces a new substantive rule.

Mr. Leonor bases that contention on this Court's state-

ment, "[t]hat Constitutional command is, like all federal law, binding on
State courts."

Id.

Even so, that it is now a constitutional command,

still "league does not preclude [states] from giving retroactive effect
to a broader set ... than league itself require[s]."

Id. at 728.

Of

course , the caution remains that under no circumstances may a state court
confine petitioners to a lesser remedy than what the U.S. Constitution
and Teague command.

See Danforth v. Minnesota, 552 U.S. 264, 287 (2008)

(citations omitted); Harper v. Virginia Dept. of Taxation, 509 U.S. 86,
100, 102 (1993) .
On the other hand, if Mr. Leonor misapprehends Montgomery v. Loui-

30

That is so, because

siana, nevertheless he has some play in it.

"Nebraska has adopted the Teague/Schriro retroactivity test[,]" Glass,
298 Neb. at 607, and that retroactivity test was employed in deciding
whether Ronald-Smith provided a new substantive rule of law.
610.

Id. at 607-

Thus, under that circumstance, the question will be whether the

federal retroactivity analysis employed by the Glass Court confines Mr.
Leonor to a lesser remedy than what federal law demands.
The Nebraska Supreme Court has already established that its decision
in Ronald-Smith is a "new rule."

See State v. Glass, 298 Neb. at 609.

Yet, the Nebraska Supreme Court has held that its new rule is not a
"constitutional rule." State v. William-Smith, 284 Neb. 636, 654-655
However, it is well established

(Neb. 2012); Glass, 298 Neb. at 609.

that the "source of a "new rule" is the Constitution itself, not any
judicial power to create new rules of law."

Danforth, 532 U.S. at 271.

Even if Ronald-Smith were not a constitutional rule, it is of no conse­
quence here because that did not affect the Glass Court's analysis in
deciding whether Ronald-Smith was a substantive rule, and as Stated
above, Nebraska is not precluded from giving retroactive effect to a
broader set than Teague itself requires.

Montgomery, 136 S.Ct. at 728.

With that in mind, next the focus is on whether Ronald-Smith is a
substantive rule.

After applying the Teague/Schriro test, the Glass

Court held that the rule announced in Ronald-Smith was a "procedural
rule" because Ronald-Smith simply held "that it was improper for a jury
to consider second degree murder without simultaneously considering
sudden quarrel manslaughter [which it resulted in] a change in the

31

acceptable method for the jury to deliberate ... "regulat[ing] only the
// //
manner of determining the defendant's culpability.

at 610 (citing Schriro, 542 U.S. at 353).

See Glass, 298 Neb.

Based on the aforementioned,

the Glass Court determined Ronald-Smith was not a substantive rule but a
procedural rule; thus it did not apply retroactively to cases on colla­
teral review.
Mr. Leonor does not debate that by Ronald-Smith concluding that it
was improper for a jury to consider second-degree murder without simulta­
neously considering sudden quarrel manslaughter, fits as a procedural
feature.

However, Mr. Leonor does debate that the Glass Court failed to

inquire whether that procedural feature was simply a required component
in order for a substantive change to operate.

As this Court held,

-"[t]here are instances in which a substantive change in the law must be
attended by a procedure that enables the prisoner to show that he falls
within the category of persons the law may no longer punish." Montgomery,
136 S.Ct. at 735.

And "[t]hose procedural requirements do not, of

course, transform substantive rules into procedural ones." Id. at 734.
As this Court held in Montgomery, "when an element of a criminal
of-fense is deemed unconstitutional, a prisoner convicted under that
offense receives a new trial where the government must prove the prisoner's conduct still fits within the modified definition of the crime.
In a similar vein, when the Constitution prohibits a particular form of
punishment for a class of persons, an affected prisoner receives a
procedure through which he can show that he belongs to the protected
class." Id (citation omitted).

The rule in Ronald-Smith fits squarely

32

within this framework.
First, the Nebraska Supreme Court found in Ronald-Smith that the
element "unintentional" of Neb. Rev. Stat. 28-305(l)'s manslaughter upon
a sudden quarrel, as held in State v. Jones, 245 Neb. 821, 830 (Neb.
1994), was unconstitutional because it was an element created by judicial
legislation.

See Ronald-Smith, 282 Neb, at 730 (quoting Jones) ; and Id

at 732 (In State v. Jones, "this Court essentially rewrote 28-305(1)
we now conclude that this was error.

...

It is the province of the legis-

lative branch, not the judiciary to define criminal offenses within
constitutional boundaries.").

Thus, the element "unintentional" was

deemed unconstitutional.
As a result, the Ronald-Smith Court held, "intent' is an element of
28-305 (1)'s manslaughter upon a sudden quarrel section.
Smith, 282 Neb, at 734.

See Ronald-

And in order for the State to obtain a con-

viction for manslaughter upon a sudden quarrel, the State must prove
beyond a reasonable doubt that the killing was intentional.

Id. at 729

(quoting State v. Pettit, 233 Neb. 436, 460 (Neb. 1989), reaffirmed by
Ronald-Smith, at 734).
Second, in Ronald-Smith was held that the difference between second
degree murder and manslaughter upon a sudden quarrel is the presence or
absence of the sudden quarrel,

Id. at 732.

And if the State wants a

conviction for second degree murder under Neb. Rev. Stat. 28-304(1), it
must now prove beyond a reasonable doubt that a defendant did not commit
the intentional killing, upon a sudden quarrel.

See State v. Abdulkadir,

286 Neb. 417 (Neb. 2013); State v. Hinrichsen, 292 Neb. 611 (Neb. 2016);

33

and State v. Gonzales, 294 Neb. 627 (Neb. 2016).

APPENDIX O.

As shown above, the elements of Neb. Rev. Stat. § 28-305(1) and Neb.
Rev. Stat. § 28-304(1), were modified in Ronald-Smith.

Now, Section 28-

305(1) has intent as an element of manslaughter upon a sudden quarrel,
and Section 28-304(1) has "absence of sudden quarrel" as an element,

"A

decision that modifies the elements of an offense is normally substantive
rather than procedural[,]" because "[n]ew elements alter the range of
conduct the statute punishes, rendering some formerly unlawful conduct
lawful or viceversa."

Schriro v. Summerlin, 542 U.S. at 354.

Under

those circumstances, a new trial must be granted for a defendant convic
ted of second-degree murder, "where the government must prove the prisoner's conduct still fits within the modified definition of the crime."
Montgomery, 136 S.Ct. at 734.

In other words, The U.S. Constitution

prohibits the punishment of 20 years to life imprisonment imposed upon
Mr. Leonor who was charged with second degree murder, unless the State
proves beyond a reasonable doubt that he did not commit the intentional
killing, upon a sudden quarrel.

APPENDIX O.

Thus, for the reasons given above, Ronald-Smith fits within the
framework of a substantive rule.

And that substantive rule must be

"attended by a procedure that enables the prisoner to show that he falls
within the category of persons the law may no longer punish."
mery, 136 S.Ct. at 735.

Montgo­

In State v. William-Smith, 284 Neb. 636 (Neb.

2012), the Nebraska Supreme Court created that procedure:
Where there is evidence that (1) a killing occurred
intentionally without premeditation and (2) the defendant was
acting under the provocation of a sudden quarrel, a jury must be
given the option of convicting of second degree murder or voluntary
34

manslaughter upon its resolution of the fact issue regarding
provocation.
Id. at 656.
That procedure is where the State must prove beyond a reasonable
doubt that the killing, although intentional, was not upon a sudden
quarrel provocation.

See State v. Abdulkadir, 286 Neb. at 426-428.14

Which the Nebraska Supreme Court held "satisfie[s] the requirements set
out in [William-]Smith.. .

Abdulkadir, 286 Neb. at 427-428.

That procedure adopted in William-Smith, is similar to the one dis­
cussed by this Court in Montgomery v. Louisiana when analyzing Miller v.
Alabama's procedure.

In that respect, this Court held that Miller v.

Alabama had "a procedural component[,]" that "require[d] a sentencer to
consider a juvenile offender's youth and attendant characteristics before
determining that life without parole is a proportionate sentence.
qomery, 136 S.Ct. at 734.

Mont-

The State of Louisiana, "contend[ed] that

because Miller require[d] this process, it must have set forth a proce­
dural rule."

This Court rejected Louisiana's position stating that

"[t]his argument, however, conflates a procedural requirement necessary
to implement a substantive guarantee with a rule that "regulate[s] only
the manner of determining the defendant's culpability."

Id. at 734-735

(citation omitted).
Because Ronald-Smith is a substantive rule of law, the Nebraska
Supreme Court's decision not to apply it retroactively to cases on

14

In Abdulkadir, the Nebraska Supreme Court held as correct that "the
second degree murder instruction required the State to disprove beyond a
reasonable doubt that Abdulkadir killed [the victim] during a sudden
quarrel[.]" Id. 286 Neb, at 427-429 (emphasis added).
35

collateral review is in conflict with federal law, and thus is reviewable by this Court.

For the reasons stated above, an exceptional

circumstance exists because the Glass Court has confined Mr. Leonor to a
lesser remedy than what the U.S. Constitution and Federal law command.
B.
Another exceptional circumstance that requires the granting of the
Court's original jurisdiction, is that Mr. Leonor is actually innocent of
That is to say, Mr. Leonor remains convicted and

second degree murder.

sentenced for a crime the State has not yet proven, and cannot prove
beyond a reasonable doubt,

AS this Court held, "serious constitutional

concerns that would arise if AEDPA were interpreted to bar judicial
review of certain actual innocence claims."

In re Davis, 557 U.S. 952

(2009)(Stevens, J., concurring); see also O'Neal v. McAninch, 513 U.S.
432, 441 (1995) ("... the basic purposes underlying the writ of habeas
corpus [is to address]

... error of constitutional

dimension—the sort

that risks an unreliable trial outcome and the consequent conviction of
an innocent man").
Also, in Davis v. United States, 417 U.S. 333 (1974), this Court
held that if habeas petitioner's contentions were true that "his
conviction and punishment [were] for an act the law [did] not make
criminal, there could be no room or doubt that such a circumstance
"inherently results in a complete miscarriage of justice" and "pre­
sent [s] exceptional circumstances that justify collateral review under
[the habeas statute].

nu

Collateral review, this Court

Id. at 346.

added, is necessary to correct a "fundamental defect in the sentencing

36

and incarceration of an innocent person."

Id.

Further, in Kuhlmann v. Wilson, All U.S. 436 (1986), this Court
envisioned that:
The prisoner may have a vital interest in having second chance
to test the fundamental justice of his incarceration. Even where,
as here, the many judges who had reviewed the prisoner's claims in
several proceedings provided by the State and in his first petition
for federal habeas corpus have determined that his trial was free
from constitutional error, a prisoner maintains a powerful and
legitimate interest in obtaining his release from custody if he is
innocent of the charge for which he was incarcerated.
Id. at 452.
"[T]his Court explicitly tied the miscarriage of justice
exception to the petitioner's innocence."
298, 321 (1995).

See Schulp v. Delo, 513 U.S.

Normally, for first time petitioners seeking federal

habeas corpus review, the "miscarriage of justice exception ... applies
to a severely confined category: cases in which new evidence shows it is
more likely than not that no reasonable juror would have convicted [the
petitioner]." See McQuiqqinq v. Perkins, 569 U.S. 383, 395 (2013) .
However, "Congress .

required of second-or-successive habeas peti­

tioners attempting to benefit from the miscarriage of justice exception
to meet a higher level of proof ("clear and convincing evidence") and to
satisfy a diligence requirement that did not exist prior to AEDPA s
passage."

Id. at 396.

Because Mr. Leonor is seeking habeas corpus

review invoking this Court's original jurisdiction, this Court is not
bound by AEDPA's statutory "restrictions on repetitive and new claims
imposed by 2244(b)(1) and (2)[,]" but "they certainly inform [the
Court's] consideration of original habeas petition."
Turpin, 518 U.S. 651, 662 (1996).
37

See Felker v.

"[W]hether a court is assessing actual innocence under the clear
and convincing evidence standard or the less stringent evidence stan­
dard, the "analysis must incorporate the understanding that proof beyond
a reasonable doubt marks the legal boundary between guilt and innocence.
Schlup, 513 U.S. at 328.

In other words, as Mr. Leonor interprets it,

the actual innocence clear and convincing standard is equivalent to the
insufficiency of evidence standard of Jackson v. Virginia, 443 U.S. 307
(1979), or crosses the legal boundary between guilt or innocence.

While

the less stringent standard "does not require absolute certainty about
petitioner's guilt or innocence."

House v. Bell, 547 U.S. 518, 538

(2006) .
With those principles in mind, Mr. Leonor asserts that his convic
tions violate Due Process because the State has failed to prove, and
cannot prove, beyond a reasonable doubt, that he committed second degree
murder (as will be argued below in the next section), which firmly meets
the clear and convincing innocence standard and surpasses the less stringent innocence standard.

Under this condition, "the Double Jeopardy

Clause precludes a second trial once the reviewing court has found the
evidence legally insufficient[;] the only just remedy available .. . is
the direction of a judgment of acquittal."
(1978) .

Burks v. U.S., 437 U.S. 1, 18

And even if it is reasoned that the State should be given the

opportunity to prove beyond a reasonable doubt before a jury that Mr.
Leonor did not commit the intentional killing upon a sudden quarrel, Mr.
Leonor is still innocent under the less stringent standard, and "a
reversal is likely based on the "weight of the evidence

38

analysis which

would afford him "a second opportunity to seek a favorable judgment.

tr rt

See Tibbs v. Florida, 457 U.S. 31, 46 (1982); see also Bousley v. United
States, 523 U.S. 614 (1998) (this Court employed the less stringent misca
rriage of justice standard that "it is likely than not that no reasonable
juror would have convicted him," based on an intervening change in the
law) .
Mr. Leonor has complied with Supreme Court Rule 20.4 (a), as shown
above in subdivisions A & B of this section, by showing that exceptional
circumstances exists in his case for this Court to grant review under its
original jurisdiction.

Moreover, as previously addressed, this Court is

Mr. Leonor's last resort. See Ex parte Hawk, 321 U.S. 114, 118 (1944)
("where resort to state court remedies has failed to afford a full and
fair adjudication of the federal contentions raised, because in the
particular cases the remedy afforded by state law proves in practice
unavailable or serious inadequate, a federal court should entertain his
petition for habeas corpus, else would be remediless.").

It must never

be forgotten that the writ of habeas corpus is the precious safeguard of
personal liberty and there is no higher duty than to maintain it unimpaired.

See Bowen v. Johnston, 306 U.S. 19, 26 (1939)(citing Ex parte

Lange, 18 Wall. 163 (1873)).
Therefore, Mr. Leonor urges this Court to grant review of his
claims and thereafter habeas corpus relief, or transfer his case to the
district court for an evidentiary hearing and/or further proceedings.

39

MR. LEONOR'S CONVICTIONS AND CONTINUED INCARCERATION
VIOLATED DUE PROCESS

III.

The Due process Clause requires the State to prove beyond a
reasonable doubt every fact necessary to constitute the crime with which
a defendant is charged.

See In re Winship, 397 U.S. 358, 364 (1970);

Mullaney v. Wilbur, 421 U.S. 684 (1975).
Evidence is not sufficient to support a conviction if, "after
viewing the evidence in light most favorable to the prosecution, any
rational trier of fact could [not] have found the essential elements of
the crime beyond a reasonable doubt."

See Jackson v. Virginia, 443 U.S.

307, 319 (1979); In re Winship, supra ("Lest there remain any doubt the
constitutional statute of the reasonable-doubt standard,

... the Due

Process Clause protects the accused against conviction except upon proof
beyond a reasonable doubt of every fact necessary to constitute the crime
with which he is charged.");

Apprendi v. New Jersey, 530 U.S. 466, 490

(2000)("facts that increase the prescribed range of penalties to which a
criminal is exposed" must be submitted to a jury and established by proof
beyond a reasonable doubt").
In Nebraska, "an intentional killing committed upon "a sudden
quarrel, " . .. constitutes the offense of manslaughter." State v. Glass,
298 Neb. 598, 609 (Neb. 2018) .

Also, "under Ronald-Smith "both second

degree murder and voluntary manslaughter involve the intentional killing;
they are differentiated only by the presence or absence of the sudden
quarrel provocation."
(2012) .

See State v. William- Smith, 284 Neb. 636, 656

"Thus, where there Is evidence that (1) a killing occurred

.intentionally without premeditation and (2) the defendant was acting

40

under the provocation of a sudden quarrel, a jury must be given the
option of convicting of second degree murder or voluntary manslaughter
upon its resolution of the fact issue regarding provocation."

Id.

This

procedure, under Will ism-Smith, is meant to require that in a case where
there is evidence of the sudden quarrel, a jury must be instructed that
the State has the burden to prove beyond a reasonable doubt both that the
killing was committed intentionally, and without a sudden quarrel.
APPENDIX O.
Moreover, it should be noted that that the element "absence of a
sudden quarrel" is not written within Neb. Rev. Stat. § 28-304(1).15
However, that is the law in Nebraska as interpreted by Nebraska's highest
court, the Nebraska Supreme Court, to which this Court's owes deference.
See Jackson v. Virginia, 443-U.S. at 324, Fn. 16 (where this Court provides that the sufficiency of evidence standard is to be applied "with
explicitly deference to the substantive elements of the criminal offense
as defined by state law."); Johnson v. Fankell, 520 U.S. 911, 916 (1997)
("neither this Court nor any other federal tribunal has any authority to
place a construction on a state statute different from the one rendered
by the highest court of the state."); Wainwright v. Goodge, 464 U.S. 78,
84

(1983) (per curiam) ("[T]he views of the state's highest court with

respect to state law are binding on federal courts."); Garner v. Louisiana, 368 U.S. 157, 166 (1961)("We of course are bound by a state's

15

Neb. Rev. Stat. § 28-304 (Reissues 1995 & 2016): "(1) A person commits
murder in -the second degree if he causes the death of a person
intentionally, but without premeditation.
41

interpretation of its own statute and will not substitute our judgment
for that of the state's when it becomes necessary to analyze the evidence
for the purpose of determining whether the evidence supports the findings
of the state court.").
With that in mind, then, the question is, is there evidence that the
intentional Killing was committed upon a sudden quarrel in order for the
procedure outline in William-Smith be employed in Mr. Leonor's case; and
thus for the State's burden of proving beyond a reasonable doubt be at
play as to whether Mr. Leonor committed the intentional killing without a
sudden quarrel?

As will be addressed below, there is evidence of a

sudden quarrel provocation, and that evidence is the State's own
evidence.

A.

THE STATE'S OWN EVIDENCE, IN MR. LEONOR'S TRIAL,
PROVIDED THAT THE KILLING ALTHOUGH INTENTIONAL,
WAS THE RESULT OF A SUDDEN QUARREL PROVOCATION

Nebraska law "define[s] a sudden quarrel as a legally recognized and
sufficient provocation that causes a reasonable person to lose normal
State v. Abdulkadir, 286 Neb. 417, 425 (Neb. 2013) . "[I]t

self-control."

does not necessarily mean an exchange of angry words or an altercation
contemporaneous with an unlawful killing and does not require a physical
struggle or other combative corporal contact between the defendant and
the victim."

Id. at 426.

The question is, "whether there existed rea­

sonable and adequate provocation to excite one's passion and obscure
and disturb one's power of reasoning to the extent that one acted rashly
and from passion, without deliberation and reflection rather than from
j udgment ■. //

Id.
42

Further, the Nebraska Supreme Court has held that "it is not the
provocation alone that reduces the grade of the crime, it is also the
sudden happening or occurrence of the provocation so as to render the
mind incapable of reflection and obscure the reason so that the elements
necessary to constitute murder are absent."
627, 654 (Neb. 2016).

State v. Gonzales, 291 Neb.

Thus, "if there was enough time between the provo­

cation and the killing for a reasonable person to reflect on the intended
course of action, then the mere presence of passion does not reduce the
crime below murder."

Id.

"The inquiry is whether the suspension of

reason reasonable continued from the time of provocation until the very
instant of the act producing death took place." Id at 652-653.
from any circumstances whatever shown in evidence, it appears that
[defendant] reflected and deliberated, or if in legal presumption there
was time or opportunity for cooling, the provocation [cannot] be considered by the jury in arriving at [its] verdict."

Id. at 653 (original

quotations).
PROVOCATION

1.

The State's evidence adduced at trial that, "[s]ince about the middle of
1998, there was a marked increase in violence ... involving Lomas [the
victims' gang] and Surenos [Mr. Leonor's gang].
cantly in 1999."

APPENDIX P, 44-45.16

... It escalated signify-

In describing what a gang member

is capable of doing, the State emphasized that gang members are involved

16

See ante, Note 5.

43

in "violent crimes such as homicides or drive-by shootings.
42.

APPENDIX P,

To further establish that there was an ongoing warfare between Mr.

Leonor's gang and the victims' gang, and the magnitude of violence
involved, the State offered testimony that the mother of one of the
members of Mr. Leonor's gang had been shot by Lomas gang members a few
days prior to the shooting at hand.

APPENDIX P, 113-114.

The State's theory further advanced that Mr. Leonor and the victims
were gang members,

That a vehicle encounter occurred at a street inter-

section between the victims and Mr. Leonor and his companion.

In that

encounter, the victims had provoked Mr. Leonor and his companion by
throwing rival gang signs at them,

This provocation from the victims led

to a car chase where Mr. Leonor was driving and his companion shooting at
the victims', car.

See State v. Leonor, 263 Neb, at 97 (Testimony of

State Witness Gerardo Ortiz)("Leonor told Ortiz that he and Gonzales had
shot someone who had thrown a Lomas gang sign at them...."); see also Id
(Testimony of State Witness Jose Hernandez)(the "four way stop sign," is
where Mr. Leonor and his companion "saw a bald headed man in a black car
who got paranoid when they looked at each other," at that time
got in front of the bald man's car to block his way ...

Leonor

[w]hen the bald

man tried to reverse and got right beside him, Gonzales then shot his gun
at the man ...

[and] Leonor next raced the bald man's car down the street

...."); see also Id (Testimony of State Witness Arthur Carter)

("Leonor's

friend began shooting at the other car while at an intersection,

They

chased the car South, shooting at it, until the car hit the pole.") .

44

The State's evidence made clear that the victim's provocation was
the only reason Mr. Leonor and his companion were involved in the car
chase and shooting at the victims' car.

APPENDIX P, 181 (Testimony of

Gerardo Ortiz)(because Mr. Leonor and his companion were provoked by the
victims throwing of rival gang signs, that is why Mr. Leonor and his
companion "did what they did.")(Mr. Leonor is referred to as "Malo" and
And that evidence is what

his companion is referred to as "Creeper.").

mainly formed the basis for the Nebraska Supreme Court to affirm Mr.
Leonor's convictions for second degree murder:
We determine that the evidence was sufficient to support the
guilty verdicts. The evidence showed that Leonor told Ortiz that
he and Gonzales had shot someone who had thrown a Lomas gang sign
at them: ... Therefore, Leonor is guilty as an aider and
abettor."
State v. Leonor, 263 Neb. at 97.
The State's evidence clearly showed that the Surenos gang and the
Lomas gang were shooting at and each other.

In fact, as shown above, the

State offered evidence showing that the Lomas gang members were capable
of shooting at the Surenos, or anyone involved with the Surenos, including a mother, just for being the mother of one of the Surenos members.
In the real world, the throwing of rival gang signs, as applicable
to the circumstances in this case, constitute that the victims wanted war
and their'intent was to harm Mr. Leonor or his companion.

The Nebraska

Supreme Court has recognized that "it is common knowledge that gang
members have guns, that gang members use guns."
Neb. 826, 850 (Neb. 2013).

State v. Foster, 286

Thus, based on the State's evidence, consi-

dering the ongoing warfare between the victims' gang and Mr. Leonor's

45

gang that involved extreme violence, a reasonable trier of fact can
conclude that the throwing of rival gang signs -by the victims implicated
nothing friendly but a provocation.

A provocation that Mr. Leonor and

his companion reacted upon after being disturbed by anger and fear
impulsed by the harm that the victims could have caused to Mr. Leonor or
his companion (i.e., Mr. Leonor or his companion could have got shot or
killed).
It should be noted that, at trial, State witness, Jose Hernandez,
testified that witness Ortiz had been with him when Mr. Leonor told them
about the shooting.
278:23; 284:23

See, collectively (Trial Bill of Exceptions, 275:9 -

285:18).

17

However, Witness Hernandez never testified

that the victims had provoked Mr. Leonor and his companion by throwing
rival gang signs at them.

But because the jury heard that Ortiz and

Hernandez were together, it is thus fair to conclude that the jury consi
dered their accounts as one, and when put together their accounts state
that Mr. Leonor and his companion caused the car chase and the shooting
upon the victims' car, only because of the victims' provocation, just as
the Nebraska Supreme Court concluded it.

State v. Leonor, 263 Neb. at 97

(Leonor told Ortiz that he and Gonzales had shot someone who had thrown a
Lomas gang sign at them.")

17

Mr. Leonor
or the document
those citations
transcripts say
documents.

does not have possession of the trial bill of exceptions,
cited to. But he states under penalty of perjury that
are accurate and the testimony referred to is what those
those witnesses testified to or what was said in those

46

2.

THERE WAS A SUDDEN HAPPENING OR OCCURRENCE OF THE PROVOCATION
In State v. Gonzales, 291 Neb. 627, 654 (Neb. 2016), the Nebraska

Supreme Court cited to State v. Freeman, 201 Neb. 382 (Neb. 1978) and
State v. Lyle, 245 Neb. 345 (Neb. 1994), cases that show an example when
the evidence shows that there was enough time to have cooled off between
the provocation and the killing, and this, the sudden quarrel provocation
was absent.

In that respect, the Gonzales Court held:

In cases where there was a much shorter cooling-off period,
but the defendant left the scene of the provocation and returned
later with a weapon, we have held that the evidence did not support
For instance, in State v. 'Lyle, we
an instruction on manslaughter,
held that the 20-minute time period between the provocation and the
killing, in which the defendant left, obtained a gun, and returned
to the vicinity of the fight, was inconsistent with sudden quarrel
manslaughter. Similarly, in State v. Freeman, we held that there
was no evidence from which the jury could infer that the murder was
upon a sudden quarrel when the victim was stabbed 14 times after
the defendant had gone to the kitchen to procure the knife and
return to the victim's bedroom.
Id. at 653-654.
In Mr. Leonor's case, the evidence presented by the State shows that
there was not time for cooling-off between the provocation until the very
instant of the act producing death took place.

For instance, when the

victims provoked Mr. Leonor and his companion, the reaction of Mr. Leonor
and his companion was only to beat to the punch or else they could have
been killed or harmed by the victims who were capable of.

The State's

evidence showed that the victims had left the house of State witness,
Antoinette Gomez, a friend of theirs, in the direction of Q street [one
of the streets that connect the intersection where the encounter
occurred] at "1:30 a.m."

See State v. Leonor, 263 Neb, at 90.

47

The evidence at trial also showed that witness Gomez's home was
located on 20th Street [the other street that connects to the intersection], not too far from Q Street.

(Trial Bill of Exceptions, 264-267).

18

Also, the evidence showed that Omaha police Officer Woolery "received a call at 1:32 concerning shots fired in the area of 20th Street."
State v. Leonor, 263 Neb, at 91.

That means, from the time the victims

left Ms. Gomez's house to the time the police call took place, no more
than two minutes had elapsed.

Within those two minutes, it is reasonable

to draw an inference that if the victims left Ms. Gomez's house at 1:30
a.m. , it must have taken them about a minute or so to arrive at the
intersection of 20th and Q Streets where the encounter occurred,

This

reasonable inference leaves one minute left before the police call was
0^ 1:32 a.m., between the provocation and the shooting and car
chase.

And this estimation is made without taking into account the time

the 911 caller took to have placed the police call (i.e., the dialing and
the ringing), which it can be fairly inferred that it took the caller
about ten seconds.

Thus, leaving about fifty seconds left between the

provocation and the shooting and car chase.
From the above evidence, and considering that no evidence was pre­
sented by the State showing that there had been an interval or a pause
upon which Mr. Leonor and his companion could have had an opportunity for
cooling and reflection between the provocation and the car chase and

18

See ante, Note 17.

48

shooting, it was established that the suspension of reason of about one
minute reasonably continued from the time of provocation until the very
act producing death took place,

In other words, the State's evidence

shows that from the time the provocation until the car chase and shooting
took place, all consisted of one continuous act.
Therefore, the evidence in Mr. Leonor's case shows that the killing
was committed upon a sudden quarrel provocation.
3.

NEBRASKA HAS NOT AND CANNOT PROVE THAT
MR. LEONOR COMMITTED INTENTIONAL KILLING
WITHOUT A SUDDEN QUARREL PROVOCATION

In assessing challenges to the sufficiency of evidence, the question
for habeas courts is not whether there was any evidence to support the
conviction, but "whether, after reviewing the evidence in light most
favorable to the prosecution, any rational trier of fact could have found
the essential elements of a crime beyond a reasonable doubt."

Wright v.

West, 505 U.S. 277, 284 (1992)(quoting Jackson v. Virginia, 443 U.S. at
319) .

Under Jackson, "Federal habeas courts must look to state law for

the substantive elements of the criminal offense, but the minimum of
evidence that the Due Process Clause requires to prove the offense is
purely a matter of federal law."

See Coleman v. Johnson, 566 U.S. 650,

655 (2012)(per curiam)(internal quotations and citation omitted).

"A

reviewing court may set aside the jury's verdict on the ground of
insufficiency of evidence only if not rational trier of fact could have
agreed with the jury."

Id. at 651.

As previously addressed, the evidence in Mr. Leonor's case shows
that the intentional killing was committed upon a sudden quarrel provo-

49

cation, a provocation that neither Mr. Leonor nor his companion initia
ted, but the victims.

State v. Leonor, 263 Neb, at 97 ("Leonor told

Ortiz that he and Gonzales had shot someone who had thrown a Lomas gang
sign at them.").

And that evidence was the State's own evidence.

If the State wanted Mr. Leonor to be convicted for second degree
murder, Ronald-Smith then requires the State to prove beyond a reasonnable doubt not only that the killing was intentional, but also that it
was not committed upon a sudden quarrel.

Appendix O.

The State only

pursued its theory that the killing was intentional, but did not prove
beyond a reasonable doubt that the intentional killing was not committed
upon a sudden quarrel,

For that reason, Mr. Leonor's convictions for

second-degree murder, and the accompanying charges of use of a weapon to
commit the second-degree murder, cannot stand because these convictions
and sentences are in violation of the Due Process Clause of the 14th
Amendment.
Moreover, it is Mr. Leonor's contention that the State cannot prove
that Mr. Leonor committed second-degree murder because its own evidence
produces that the killing was committed upon a sudden quarrel provocation.

Mr. Leonor asserts that if Ronald-Smith had been around at the

time he had his direct appeal, the Nebraska Supreme Court would have
determined that the State failed to prove beyond a reasonable doubt that
the intentional killing was not committed upon a sudden quarrel
provocation.
On direct appeal, Mr. Leonor pressed to the Nebraska Supreme Court
that the evidence in favor of the State failed to support for a charge of

50

second degree murder, that at the most, the State's evidence could have
proved manslaughter upon a sudden quarrel.

(State v. Leonor, S-00-1318,

Appellant's Brief, p. 17)("the theory of the State was that gang signs
were exchanged and then Leonor chased after the other vehicle with
Gonzales hanging out of the window firing shots ... that the State pushed
the theory that Medrano was a gang member of a rival gang, Gonzales
intended to kill them.").

19

Based on the State's theory, Mr. Leonor further advanced that "the
facts of this case suggest that the crime of manslaughter was commitThe obvious difference as it relates to the facts of the present

ted. .

case is the lack of intent required in the commission of manslaughter.
The State failed to prove, beyond a reasonable doubt, that the appellant
knew that Mr. Gonzales possessed the requisite intent to kill both
victims and that the appellant, himself, had the requisite to kill both
victims." (Id. at p. 18).
In affirming Mr. Leonor's convictions, the Nebraska Supreme Court
found that the State had proved that the killing was intentional, and for
that reason Mr. Leonor was guilty of aiding and abetting second degree
murder.

State v. Leonor, 263 Neb. at 97.

In doing so, the Nebraska

Supreme Court clearly was mindful that the killing had been committed
upon a sudden quarrel provocation.

Id ("Leonor told Ortiz that he and

Gonzales had shot someone who had thrown a Lomas gang sign at them. ).
Had Ronald^Smith been existent when the Nebraska Supreme Court

19

See ante, Note 17.
51

decided Mr. Leonor's case, his convictions and sentences for second
degree murder and the accompanying convictions of use of a weapon, would
have been found insufficient and set aside.

For this other reason, Mr.

Leonor asserts that the State cannot prove that he committed the inten
tional killing without a sudden quarrel.
Therefore, Mr. Leonor is a person in custody pursuant to the judg­
ment of a state court and his custody for his convictions and sentences
for second-degree murder and the accompanying convictions and sentences
for the use of a weapon are all in violation of the Due Process Clause of
the 14th Amendment to the U.S. Constitution.

See 28 U.S.C. § 2254 (a).

As previously stated, this Court is Mr. Leonor's last resort to
address and correct the miscarriage of justice because no other court,
state or federal, can.

Ex Parte Hawk, 321 U.S. 114, 118 (1944)("where

resort to state court remedies has failed to afford a full and fair
adjudication of the federal contentions raised, because in particular
cases the remedy afforded by state law proves in practice unavailable or
serious inadequate, a federal court should entertain his petition for
habeas corpus, else he would be remediless.").
The application of AEDPA to Mr. Leonor's case, will be a suspension
of the writ of habeas corpus in violation of Art. I, § 9, Clause 2 of the
Constitution.

As such, he implores this Court, or if the cause is trans-

ferred to the district court, to find that "the statute's text is satis­
fied because decisions of this Court clearly support the proposition that
it would be an atrocious violation of the Constitution and the principles
upon which is based," to keep the rest of his life in prison an innocent

52

man.

See In re Davis, 557 U.S. 952 (2009)(Stevens J., concurring).
Moreover, Mr. Leonor asks the Court that, if a hearing is necessary,

and if his case is transfer to the district court, to entitle him to an
evidentiary because he has presented the factual basis for his claim in
the State courts, but unsuccessfully obtained one.

In Williams v. Tay-

lor, 529 U.S. 420, 435 (2000), this Court held that a petitioner who did
not receive an evidentiary in state court may receive an evidentiary
hearing in federal court "unless there is lack of diligence, or some
greater fault, attributable to the prisoner, or the prisoner's counsel."
Id.

The Court further held, "[d]iligence will require in the usual case

that the prisoner, at a minimum, seek an evidentiary hearing in state
court in the manner prescribed by state law."
Mr. Leonor has been diligent in seeking an evidentiary hearing in
the state courts, to no avail.

Appendix D, 81; Appendix L, 9-11;

Appendix M, 6.
CONCLUSION
Therefore, Mr. Leonor respectfully asks the Court to grant the
petition for habeas corpus and find that:
*

Ronald-Smith applies to his case; and
to set aside and dismiss his convictions and sentences for second

degree murder and remand that he be discharged from custody on those
charges and the weapon charges related to the murders; or
to set aside and dismiss his convictions and sentences for second
degree murder with remand to the State courts for a new trial;
*

to transfer the cause to the district court for further

53

proceedings and grant an evidentiary hearing or with directions to set
aside and dismiss the charges for second degree murder, and that Mr.
Leonor be discharged from custody on those charges and the weapon charges
related to the murders; or
To transfer the cause to the district court for further
proceedings and grant of an evidentiary hearing or with directions to set
aside and dismiss the charges for second degree murder and related
charges, and remand to the State courts for a new trial.
Respectfully submitted on thisaR.3 day of

^UtA€L

, 2021.

STATE OF NEBRASKA . — )
) ss.
COUNTY OF LANCASTER)
COMES NOW, Juan Luis Leonor, the Petitioner, pro se, pursuant to 28
U.S.C. -§ 2242, and being first duly sworn upon oath hereby deposes and
. states that he is the undersigned petitioner in the above and foregoing
Petition for a Writ of Habeas Corpus; that he knows the contents therein,
and states and-avers that to the best of his knowledge and understanding
of the,facts, the statements contained therein are true and accurate to
the best of his knowledge and belief.
&
JUS-

iiMsLeo^r-Petitioner

SUBSCRIBED AND SWORN TO before me and in my presence on this 23*4 day of
, 2021.

SEAL:'

DENISE C. MORTON"
\
General Notary State of Mraska S,
~
Ny Commuion Eapires
Aunwt 31.2023.

Notary Public

54

